<html>
<title> - ONLINE VIRTUAL WORLDS: APPLICATIONS AND AVATARS IN A USER-GENERATED MEDIUM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
  ONLINE VIRTUAL WORLDS: APPLICATIONS AND AVATARS IN A USER-GENERATED 
                                 MEDIUM

=======================================================================


                                HEARING

                               BEFORE THE

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             April 1, 2008

                               __________

                           Serial No. 110-102


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
50-918                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    COMMITTEE ON ENERGY AND COMMERCE

    JOHN D. DINGELL, Michigan, 
             Chairman
HENRY A. WAXMAN, California
EDWARD J. MARKEY, Massachusetts
RICK BOUCHER, Virginia
EDOLPHUS TOWNS, New York
FRANK PALLONE, Jr., New Jersey
BART GORDON, Tennessee
BOBBY L. RUSH, Illinois
ANNA G. ESHOO, California
BART STUPAK, Michigan
ELIOT L. ENGEL, New York
ALBERT R. WYNN, Maryland
GENE GREEN, Texas
DIANA DeGETTE, Colorado
    Vice Chairman
LOIS CAPPS, California
MIKE DOYLE, Pennsylvania
JANE HARMAN, California
TOM ALLEN, Maine
JAN SCHAKOWSKY, Illinois
HILDA L. SOLIS, California
CHARLES A. GONZALEZ, Texas
JAY INSLEE, Washington
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
DARLENE HOOLEY, Oregon
ANTHONY D. WEINER, New York
JIM MATHESON, Utah
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana               JOE BARTON, Texas
                                         Ranking Member
                                     RALPH M. HALL, Texas
                                     J. DENNIS HASTERT, Illinois
                                     FRED UPTON, Michigan
                                     CLIFF STEARNS, Florida
                                     NATHAN DEAL, Georgia
                                     ED WHITFIELD, Kentucky
                                     BARBARA CUBIN, Wyoming
                                     JOHN SHIMKUS, Illinois
                                     HEATHER WILSON, New Mexico
                                     JOHN B. SHADEGG, Arizona
                                     CHARLES W. ``CHIP'' PICKERING, 
                                         Mississippi
                                     VITO FOSSELLA, New York
                                     STEVE BUYER, Indiana
                                     GEORGE RADANOVICH, California
                                     JOSEPH R. PITTS, Pennsylvania
                                     MARY BONO, California
                                     GREG WALDEN, Oregon
                                     LEE TERRY, Nebraska
                                     MIKE FERGUSON, New Jersey
                                     MIKE ROGERS, Michigan
                                     SUE WILKINS MYRICK, North Carolina
                                     JOHN SULLIVAN, Oklahoma
                                     TIM MURPHY, Pennsylvania
                                     MICHAEL C. BURGESS, Texas
                                     MARSHA BLACKBURN, Tennessee
<RULE>_________________________________________________________________

                           Professional Staff

 Dennis B. Fitzgibbons, Chief of 
               Staff
Gregg A. Rothschild, Chief Counsel
   Sharon E. Davis, Chief Clerk
 David L. Cavicke, Minority Staff 
             Director

                                  (ii)
          Subcommittee on Telecommunications and the Internet

               EDWARD J. MARKEY, Massachusetts, Chairman
MIKE DOYLE, Pennsylvania             FRED UPTON, Michigan
    Vice Chairman                        Ranking Member
JANE HARMAN, California              J. DENNIS HASTERT, Illinois
CHARLES A. GONZALEZ, Texas           CLIFF STEARNS, Florida
JAY INSLEE, Washington               NATHAN DEAL, Georgia
BARON P. HILL, Indiana               BARBARA CUBIN, Wyoming
RICK BOUCHER, Virginia               JOHN SHIMKUS, Illinois
EDOLPHUS TOWNS, New York             HEATHER WILSON, New Mexico
FRANK PALLONE, Jr., New Jersey       CHARLES W. ``CHIP'' PICKERING, 
BART GORDON, Tennessee                   Mississippi
BOBBY L. RUSH, Illinois              VITO FOSELLA, New York
ANNA G. ESHOO, California            GEORGE RADANOVICH, California
BART STUPAK, Michigan                MARY BONO, California
ELIOT L. ENGEL, New York             GREG WALDEN, Oregon
GENE GREEN, Texas                    LEE TERRY, Nebraska
LOIS CAPPS, California               MIKE FERGUSON, New Jersey
HILDA L. SOLIS, California           JOE BARTON, Texas (ex officio)
JOHN D. DINGELL, Michigan (ex 
    officio)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     3
Hon. Jane Harman, a Representative in Congress from the State of 
  California, opening statement..................................     4
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     5
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     5
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................     6
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     7
Hon. Mike Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     8
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................    68

                               Witnesses

Philip Rosedale, Founder and Chief Executive Officer, Linden Lab.     9
    Prepared statement...........................................    11
Susan Tenby, Senior Manager, Community Development, TechSoup.....    14
    Prepared statement...........................................    17
Colin Parris, Ph.D., Vice President, Digital Convergence, IBM 
  Research, IBM Corporation......................................    28
    Prepared statement...........................................    30
Larry Johnson, Ph.D., Chief Executive Officer, The New Media 
  Consortium.....................................................    48
    Prepared statement...........................................    50

                           Submitted Material

``The Truth About Autism: Scientists Reconsider What They Think 
  They Know,'' David Wolman, Wired Magazine, February 25, 2008...    69
``Virtual jihad hits Second Life website,'' Chris Gourlay and 
  Abul Taher, The Sunday Times, August 5, 2007...................    78
American Cancer Society, statement, prepared by Randall Moss.....    80


  ONLINE VIRTUAL WORLDS: APPLICATIONS AND AVATARS IN A USER-GENERATED 
                                 MEDIUM

                              ----------                              


                         TUESDAY, APRIL 1, 2008

              House of Representatives,    
         Subcommittee on Telecommunications
                                  and the Internet,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    <SUP>235</SUP>U
    The subcommittee met, pursuant to call, at 9:35 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Edward J. 
Markey (chairman of the subcommittee) presiding.
    Members present: Representatives Markey, Doyle, Harman, 
Inslee, Boucher, Eshoo, Stupak, Green, Stearns, Shimkus and 
Wilson.
    Staff present: Amy Levine, Tim Powderly, Mark Seifert, 
Maureen Flood, Colin Crowell, David Vogel, Philip Murphy, Neil 
Fried, and Garrett Golding.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. The avatar will gavel the hearing to order. The 
subcommittee will come to order.
    This is going to be, I think, one of the most fascinating 
hearings that we have ever had, and we thank all of you for 
coming and participating, and this is actually going to be the 
first simulcast of a congressional hearing in a virtual world. 
A recreation of this committee hearing room has been developed 
in Second Life, and my avatar is there as well in the virtual 
chairman's seat. My avatar actually looks like he has been 
working out, and that's one of the beauties of Second Life.
    There are also several other avatars who have been invited 
to watch today's hearing from Second Life. In particular, I 
would like to welcome an avatar we have invited named Wild 
Cunningham, which was created by an inspirational group of 
individuals with cerebral palsy at an adult daycare center in 
Dorchester, Massachusetts. They are using their avatars to run, 
to fly, and to communicate with people in a whole new way. This 
is a prime example of how virtual worlds can empower and 
animate the lives of individuals with disabilities through the 
use of broadband technologies.
    Mitch Kapor, founder of Lotus in Massachusetts and a 
transplant out to Silicon Valley and to Second Life, is also 
present with his avatar in the hearing room. We have also 
invited the avatars of several journalists, online advocates, 
and academics, as well as the avatars of several Federal 
Government representatives from NOAA, the National Oceanic and 
Atmospheric Administration, who have built an incredible locale 
in Second Life where individuals can watch the impacts of 
global weather conditions, as well as fly into the eye of a 
virtual hurricane.
    In fact, virtual worlds often permit people to do things in 
model conditions that would be difficult to do in real life. 
For example, emergency first responders can train for scenarios 
that are difficult to stage in real life. Responses to things 
like natural disasters or a flu pandemic can be practiced and 
analyzed by professionals in this virtual medium. In addition, 
the American Cancer Society has raised tens of thousands of 
dollars in charitable contributions in Second Life and is quite 
active in the medium. Colleges and universities around the 
country are also presently harnessing the power of this new 
medium for education, experimentation, cultural exchange, and 
fostering understanding. Virtual worlds are at the cutting edge 
of so-called Web 2.0 applications and services, which enable 
users to generate the content of this realm such as with 
YouTube and Flickr and Facebook. Virtual worlds can also 
support business operations and commercial applications from 
real estate sales to business conferences, product marketing, 
music sales, and the general buying of goods and services. IBM, 
which is testifying today, has been an early and active 
colonizer of this electronic frontier.
    Today's hearing has been designed primarily to be 
educational. In time, virtual worlds will become ever more 
commonplace, and millions of Americans will inhabit such worlds 
for parts of their day for communications, for business, for 
education, for healthcare, for cultural interest. As that 
occurs, policy issues will inevitably arise that mirror the 
issues that confront policymakers in the real world: consumer 
protection, personal privacy, intellectual property protection, 
banking issues, online gambling, or child protection concerns. 
Policymakers will have to continue to monitor these issues to 
ensure adequate consumer protection as virtual worlds continue 
to evolve and to grow. However, online virtual worlds, as 
represented by Second Life or Zwinky or there.com, are at their 
best vehicles for understanding across borders and for building 
communities. They can empower individuals, companies, and 
professionals with the ability to visualize and conceptualize 
not only what is present, but also what is possible. To this 
extent, today's hearing is both a glimpse into the future and 
also a window into the current reality for millions of people 
across the world.
    As the subcommittee delves into this first educational 
hearing about virtual worlds, it is important to keep in mind 
that if we want to foster the best of what this medium has to 
offer, we must consider the policies that will be conducive to 
such growth. These include upgrading our broadband 
infrastructure and speed, fostering openness and innovation in 
our Internet policies, and ensuring that we bridge digital 
divides in our country so that all Americans can benefit.
    I want to thank our witnesses for their willingness to 
share their experience with us this morning and look forward to 
their testimony. I would also like to thank the staff who have 
helped to pull this together today: Sharon Davis, Carla 
Hultberg, Phil Murphy, David Vogel, as well as Sue Singer from 
Second Life. All of them worked very hard over the last 5 or 6 
days to put together today's exhibition.
    That concludes the opening statement of the chairman.
    I now turn to recognize the ranking member of the 
Subcommittee on Telecommunications, the gentleman from Florida, 
Mr. Stearns.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Thank you, Mr. Chairman. Let me compliment you 
on this hearing. I think it is an exciting time, and I also 
feel this, being the first hearing on virtual worlds, is a 
great event, and I compliment you on doing this, and I 
compliment Mr. Rosedale for the development here, and I see 
that we do have an avatar Mr. Markey there, and I was looking 
at the details, and obviously he looks like he is a bit 
younger, and he probably appreciates that, having come off a 
little basketball injury, and it looks like he is whole there.
    The possibilities and the applications for what Second Life 
is doing with online virtual worlds are unlimited, probably 
only limited by the imagination and creativity of its 
employees. With the advent of higher resolution and high 
definition, the avatars that we have that we show for people 
here today are graphically worked out through artistic sketches 
in attempts to get the likeness. Obviously in the future these 
avatars could become photo or exact replicas in terms of 
viewing and a video representation that would look, walk, and 
act just like the real thing, and I think that is probably in 
the very near future. Advances in technology will lead to 
better graphics, easier to use and more innovative 
applications, as we see now in the high-definition digital 
cameras. We see it obviously in the cartoons and the comic book 
types of movies.
    It is going to be a highly competitive world. We just want 
to make sure it is not highly regulated. The rapid development 
of text-based e-mail, today's audio- and video-rich worldwide 
web, we want to continue to have that. The unprecedented growth 
investment in broadband network services and applications is 
now leading to what some believe is the future of the Internet: 
virtual Web-based communities such as Second Life, in which 
users interact with each other through graphical representation 
of themselves.
    This hearing obviously will explore some of the unique 
things about Second Life's users, what they are doing with the 
platform, as well as how Linden Lab, the company behind Second 
Life, is dealing with some of the challenges, and perhaps there 
are some challenges that we should talk about, their enabling 
unique and innovative ways to conduct entertainment, commerce, 
research, education, and political discourse. Mr. Markey was 
able to go to Bali on this virtual world and give a 
presentation. I think that was commendable the way you did it, 
and I thought it was very interesting. You can use Second Life 
as a storefront for real-world businesses or by selling virtual 
goods and services for use within Second Life, and you can 
start selling clothing, furniture and even buildings. Chevrolet 
now, I understand, owns an island where car enthusiasts may 
converse with GM mechanics, designers and engineers to gain 
information on the repair of their automobiles, perhaps 
learning how to get better performance out of their cars. IBM 
employees worldwide use Second Life as an advanced video 
conferencing system for collaborative projects. This is all 
good. According to the Wall Street Journal, Second Life users 
spent a reported $64 million in 2006, and analysts estimate 
that Second Life 2007 GDP will be between $500 and $600 
million.
    A recent survey of 30,000 gamers found that nearly 40 
percent of men and 53 percent of women who played online games 
said that their virtual friends were equal to or better than 
their real-life friends, so that is a concern here. 
Furthermore, more than a quarter of gamers said the emotional 
highlights of the past week occurred in the computer world.
    Second Life has a great potential obviously, but we must 
remain vigilant, especially when it comes to criminal activity 
online, and these online virtual communities enable some of the 
most egregious social behaviors, social ills that we witnessed 
in the Internet. We could see it on Second Life. Child 
pornography is another one, as well as fraud. Sexual predators 
and con men have found their way into the Internet. They will 
find their way into the virtual reality, too. But like any 
business, virtual or real, it appears that Second Life must 
endure and must protect the safety of its users and be flexible 
in its platform so it can flourish at the same time without 
overregulation. So far, Second Life appears to be doing just 
that, and I commend them for that.
    I will close, Mr. Chairman, by offering a suggestion that 
if somehow, some way you, as distinguished chairman, find the 
virtual world so enjoyable that you wish to remain in it for a 
while, I will be glad to ease your conscience here and take 
some of your colleagues with you, and I will be glad to run the 
subcommittee in your absence. With that, Mr. Chairman, I yield 
back.
    Mr. Markey. I thank the gentleman.
    I will now turn to recognize the gentlelady from 
California, Ms. Harman.

  OPENING STATEMENT OF HON. JANE HARMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Harman. Thank you, Mr. Chairman.
    For the record, my Web site has had a virtual office on it 
for years as a way to lead constituents around it. Some might 
also think of Congress as a virtual world. Many think we have 
little connection to the real world. We watch floor hearings 
and floor debates on flat screens or computers in the privacy 
of our offices. We fly into and out of town so quickly that we 
might as well send avatars to the Floor to vote in our stead. 
In fact, I even know an officeholder in my district along the 
beach in Los Angeles who conducts his office on the beach using 
a laptop. It sounds tempting, doesn't it?
    But kidding aside, online virtual worlds, as you have just 
said and the ranking member has just said, play a valuable 
role. Second Life can provide language training to our foreign 
service officers and an open platform for e-commerce and 
innovation of new Internet applications and many other things 
that we cannot even imagine yet and that I am sure our 
witnesses will imagine for us.
    But as the ranking member said, there is also a downside. 
He was talking about crime. I would just like to mention 
terrorism. Press reports suggest that Islamic militants are 
using programs like Second Life to transfer money, build online 
communities and win new recruits. I do not think this should 
cause us to advocate censorship. I do not advocate censorship, 
but I do suggest that a clear-eyed understanding of the 
potential of virtual worlds is essential to helping us fight 
the newest trends in terrorism.
    I would like to thank, Mr. Chairman, your avatar for 
holding this hearing. I actually suspect that the real reason 
we are here is so that you can get some pointers on how to get 
past the seventh level of the World of Warcraft, but I do think 
you need to know that chairing this hearing is only worth two 
experience points.
    I yield back.
    Mr. Markey. The gentlelady's time is expired.
    The chair recognizes the gentleman from Illinois, Mr. 
Shimkus.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. I will be brief. My 
second son just turned 13, so I have two teenagers now, and of 
course, they play a virtual reality game called RuneScape, with 
which they communicate with their friends. They both go online 
at the same time and kill dragons and get money and do whatever 
they do in that area. The other thing is an avatar, it is 
either a Hindu or a Buddhist name for a god, I don't know if 
you knew that, which always gives me some concern about virtual 
reality and how they are nice, but they do portray things that 
aren't real and I don't think anyone perceives as gods. Well, 
maybe some people do up here in Washington.
    With that, I look forward to this hearing. I am going to 
learn a lot. I don't delve into this arena, so I thank you, Mr. 
Chairman.
    Mr. Markey. I thank you, but I think only lobbyists see us 
as gods. I think the rest of the world has a clearer perception 
of who we are.
    Let me turn and recognize the gentleman from Virginia, Mr. 
Boucher.
    Mr. Boucher. No statement.
    Mr. Markey. The chair recognizes the gentlelady from 
Silicon Valley, Ms. Eshoo.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, for holding another 
hearing on emerging technologies, and a warm welcome to all of 
the panelists, certainly Mr. Rosedale from Linden Lab. I am 
proud that they have operations in my congressional district 
and our constituent company.
    I can't help but think of the phrase ``get a life,'' and 
now we have Second Life, and while some might think of it as a 
little peculiar, it wasn't that long ago that social networking 
was outside the mainstream, and it is very, very quickly 
becoming the mainstream. It is a vital way for the major 
presidential candidates to reach out to voters directly. 
Several Members have already mentioned so many of its 
manifestations, but what I think is so exciting about it is 
that the possibilities seem to be endless. It is the 
transformative nature of the technology that allows for 
individuals to connect with each other in new and creative 
ways. Universities have created virtual environments for 
instruction and new ways for students to collaborate. It is a 
very important use of it. And companies use Second Life to 
bring distant employees together on projects, and we have 
already heard that some Members of Congress have also created 
virtual town hall meetings.
    So there are many, many ways to make use of this, and Mr. 
Boucher is here this morning. There was a memorial for the 
tragedy in his district that included the pictures and bios of 
many of the students and faculty who had lost their lives. They 
created a place where anyone could leave a candle, flowers, or 
express their sympathy. So I think that this technology really 
taps into human beings wanting to socially interact, so there 
are fun applications, there are serious ones, and I look 
forward to hearing a lot more about this.
    As I said to Mr. Rosedale, I am going to have to excuse 
myself because we have an Intelligence Committee meeting at 
10:00, but again, I welcome all of you. For those of you who 
are here for the first time, this is a real Markey hearing. He 
is always tapping into the future. So thank you to all of you.
    Mr. Markey. Thank you. The gentlelady's time has expired.
    The chair recognizes the gentleman from Michigan, Mr. 
Stupak.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. Well, thank you, Mr. Chairman. Today's hearing 
encompassing online virtual worlds promises to be an 
interesting one, as the use of these applications continues to 
grow. The number of computer users subscribing to online 
virtual world services is growing at a phenomenal rate and is 
predicted to surpass 50 million users in 2008. One such online 
application, Second Life, has had an impact in the education 
field. Over 60 schools and universities have set up virtual 
classrooms in Second Life. Professors are creating environments 
designed not only to teach their students more effectively, but 
also to teach students hundreds or sometimes thousands of miles 
away. The business sector is also starting to join this growing 
medium. Companies such as IBM, Mazda, Disney, GM, Major League 
Baseball, and others have opened up a virtual property on 
Second Life, sometimes even showcasing their newest products 
for consumer feedback.
    Aside from all the positives of this growing medium, I do 
want to focus on an issue that is very important: how is the 
industry that is creating these applications ensuring that 
children are protected from potential dangers online? With my 
law enforcement background and my work on O & I, we find that 
in 2006 the Subcommittee on Oversight and Investigations held 9 
days of public hearings on online child safety. Our focus was 
on Internet service providers and social networking sites. 
These online virtual worlds are similar to social networking 
sites and even more interactive. So I am interested in learning 
from our witnesses about what steps they have taken to ensure 
that children are protected when they log into these virtual 
worlds. Nearly one in five children reported receiving a sexual 
solicitation over the Internet, and an estimated 8.2 million 
children in the United States from ages 3 through 17 years old 
log onto virtual worlds. The anonymity provided by the Internet 
to those that seek to exploit and harm children and the 
lightning pace at which they can change identities and elude 
law enforcement provides a significant policy challenge. 
Nonetheless, we need to do everything we can to protect 
children that use these programs.
    There are also concerns about the addictive nature of these 
applications. The American Psychiatric Association has begun 
studying the effects of these virtual world applications to see 
if some users are becoming psychologically addicted.
    I look forward to discussing my concerns with our witnesses 
and learning more about what the future holds with this growing 
medium.
    Thank you, Mr. Chairman, and thank you to all of our 
witnesses.
    Mr. Markey. I thank the gentleman, and now we recognize the 
gentleman from Texas, Mr. Green, for an opening statement.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, and following my 
colleagues, I am glad you called this hearing, because I think 
maybe some of us, and you and I shared it before the hearing, 
that we played basketball together for many years. Some of us 
are getting much older. Maybe in our Second Life we will always 
make our 3-point shot and still run up and down the court like 
we did 20 years ago.
    Online virtual worlds like Second Life are growing in 
popularity,and I am not active in it like some of the members 
of our subcommittee, and I look forward to the educational 
hearing we are having today, learning more about the numerous 
uses and applications for virtual space. From commerce, grant 
promotion to philanthropic educational purposes, individuals, 
companies and universities and other groups are finding 
innovative, useful ways to make use of virtual space. Several 
years ago there were articles about former Governor Mark Warner 
creating an avatar in Second Life, which was unheard of at the 
time. Today, dozens of elected officials are in Second Life or 
virtual worlds, and we see presidential campaigns using Second 
Life to hold events, and grassroots efforts in virtual space 
have exploded.
    In the area of education, my alma mater, the University of 
Houston, created a design economics course that uses live 
modeling of business practices in Second Life, where designers 
can try their design and entrepreneurial skills against an 
entire market, rather than using simulation software. This 
provides a real-time simulation of real-time economy and 
customers, which makes a realistic and quick experience in 
running an entrepreneurial venture. Students are free to create 
content and learn business skills under the mentorship of 
architects and businesspeople, as well as successful virtual 
shopkeepers and developers. As more people with different 
applied sciences join in a virtual space, the educational 
potential will broaden to apply to journalism, music, police 
work, law, and many more.
    In closing, I would like to comment that none of these uses 
or applications would be possible without high-speed broadband 
service, and as this committee moves forward, we should 
continue to promote innovation by supporting broadband 
deployment and competition in the marketplace. Fast and 
affordable Internet access will benefit consumers, foster 
innovation, and promote innovative and forward-thinking 
companies like Linden Lab. I hope we can continue and encourage 
the competition we have seen in the broadband marketplace over 
the past several years, which will be greatly increased with 
the creation of a third and maybe even a fourth pipe for 
wireless broadband service for the near future.
    Again, I thank you, Mr. Chairman, for holding the hearing. 
I yield back my time.
    Mr. Markey. The gentleman's time is expired.
    The chair recognizes the gentleman from Pennsylvania, Mr. 
Doyle.

   OPENING STATEMENT OF HON. MIKE DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Mr. Chairman.
    Mr. Chairman, I noticed that we are holding this hearing 
within Second Life. As you have mentioned, Second Life isn't 
the only online virtual world, and Mr. Chairman, you are not 
the only one with an avatar either. A more computer-savvy 
member of my staff made an avatar for me and my staff a few 
months ago, and hopefully we can put it up on the screen there 
for you to see. There is my staff and I.
    Mr. Chairman, my point is, Members of Congress, we have a 
lot of lives. Not only do I sit on this subcommittee, but I 
also co-chair the Coalition on Autism Research and Education, 
better known as the Autism Caucus, and since tomorrow is World 
Autism Day, I feel it is important to highlight some uses of 
this technology. For example, autistics.org has created the 
Autistic Liberation Front. It is a platform where men and women 
with autism or Asperger's are able to find other people with 
autism and communicate more. Some of these people are what we 
might consider as uncommunicative, and we might have written 
them off and ignored their unique skills and abilities. For 
these people, Second Life has given them a voice in ways that 
other methods have failed. To that end, I would like to 
introduce this recent article from Wired magazine about people 
with autism and Asperger's and how their creative uses of the 
Internet are causing some researchers to rethink their 
conclusions about people with autism.
    Mr. Markey. Without objection, it will be included in the 
record.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. Thank you. And just as important, Second Life 
and others like it are great examples of how the Internet is 
changing. Give people a connection and they find fascinating 
new ways to fill it. Peoples' tastes and interests are 
changing, and the Internet changes with them. You know, Mr. 
Chairman, sites like Second Life raise interesting questions 
about net neutrality. Too often the conversation about it has 
been about how to manage scarce bandwidth. I think that 
conversation needs to be flipped on its head and instead the 
conversation needs to be about how we can obtain an abundance 
of bandwidth. People like our witnesses here will find new ways 
to come and use it, but only if America builds it and makes it 
available to everyone.
    Thank you, Mr. Chairman. I yield back my time.
    Mr. Markey. The gentleman's time is expired.
    The chair recognizes the gentlelady from New Mexico, Ms. 
Wilson.
    Ms. Wilson. I waive.
    Mr. Markey. All time for opening statements has been 
completed, so we will turn to our first witness. That is Philip 
Rosedale, who is the founder of Linden Lab and creator of 
Second Life. He has extensive knowledge in the development and 
pioneering of streaming technology, having been the chief 
technology officer at Real Networks for 3 and a half years, as 
well as the entrepreneur-in-residence for Excel Partners, where 
he began his work that would lead to Second Life. We welcome 
you, Mr. Rosedale, and whenever you are ready, please begin.

   STATEMENT OF PHILIP ROSEDALE, FOUNDER AND CHIEF EXECUTIVE 
                      OFFICER, LINDEN LAB

    Mr. Rosedale. Thank you, Chairman Markey, Ranking Member 
Stearns, members of the subcommittee. We at Linden Lab very 
much appreciate the opportunity to come and talk to you, share 
with you our vision of how we think virtual worlds are 
fundamentally altering how both people and organizations can 
use the Internet, and I think more broadly, changing the nature 
of communication itself. It is certainly delightful to hear the 
depth of knowledge that everybody here has coming into this, 
and hopefully we can add something today.
    Through Second Life, the Second Life Grid, we believe we 
are creating a part of the evolution of the Internet as a new 
platform with vast commercial, scientific, educational and 
social potential. We founded Linden Lab in 1999 to try and 
develop a unique form of shared 3D experience. When we launched 
Second Life in 2003, we had enough server space to represent 
about a 1-square-kilometer patch of land in the virtual world. 
We also had about 500 users of Second Life at that time. We 
welcomed our 100,000th user in January of 2006, and since then 
we have seen a great deal of phenomenal growth. Today, in the 
past month there have been about 900,000 people who have used 
Second Life, and at any time there are typically 50,000 to 
60,000 people who are logged in together to the virtual world. 
Our servers today support nearly 390 square miles of virtual 
land, which is the equivalent of over six times the area of 
Washington, D.C.
    So why have we seen this kind of explosive growth? We think 
the Second Life grid is essentially the next step in the 
fulfillment of what we all want to do or imagine ourselves 
being able to do with the Internet, allowing us as people to 
both create and consume content and also interact with each 
other in a 3D environment. As we have discussed, the potential 
for education, entertainment, other types of interaction in a 
3D environment that is filled with other people, is far greater 
than in the flat and isolated two-dimensional world of the Web 
today.
    So while Second Life began initially in its use with 
playful experimentation and self-expression, today we are 
seeing a very vibrant mix of in-world businesses, real-world 
brick-and-mortar brands, educators, scientists, and curious and 
creative individuals. These groups are creating content. They 
are engaging in commerce, and they are mixing with each other 
easily across what might otherwise be real-life gaps, gaps that 
are caused by geography, physical geography, by language, by 
culture, or even just by lack of information.
    So to help you understand what Second Life users are 
creating, we have prepared a short video especially for this 
hearing. We will share with you some typical Second Life 
stories, hopefully give you a glimpse of the many ways people 
are using Second Life, and you may even see a familiar face in 
here, so let's watch it.
    [Video shown.]
    Mr. Rosedale. Thanks. As you have hopefully seen, there are 
a lot of new and very innovative things that are happening on 
the Second Life Grid.
    So, on a broader scale, why does this all matter? We 
believe virtual worlds, particularly Second Life, hold great 
promise for America, for our economic development, for our 
ability to compete globally, and most fundamentally, virtual 
worlds mark a significant leap forward in how we are able to 
communicate and work together over geographic distances. As you 
have seen in the video, in virtual worlds there is a sense of 
geographic place and personal presence, even when users are 
miles or continents apart. In Second Life, you can see the 
other person. You can verbally speak with him. You can also 
chat or instant-message with him. So you are occupying a multi-
tiered communications platform with dimensions that do not 
currently exist with e-mail, telephone conference calling, or 
even the Web. This vastly expands our ability to collaborate 
over a distance. Large groups can hold conferences, they can 
engage in language training, as mentioned. They can design 
blueprints, plans or computer code as if they were in the same 
room together. In a virtual atmosphere, even people who haven't 
met each other can rapidly establish rapport and trust. This is 
one reason why large companies are effectively using Second 
Life across distributed communities of employees. They are 
taking advantage of the ability to transfer and view 
information basically immediately in Second Life along with the 
reduced production and infrastructure costs and very low 
barriers to entry inherent in this technology.
    By making this kind of environment, this immersive 
environment, widely accessible, virtual worlds we think are 
poised to do what the telephone, the Internet and e-mail all 
did, which is to reduce communications costs and create new and 
faster ways to build and collaborate and thus increase personal 
productivity. These increases in productivity tend to occur 
exponentially, so we think it is vital to America's growth that 
we lead the charge and continue to develop the expertise and 
framework to master this new technology.
    Mr. Markey. If you could summarize, Mr. Rosedale?
    Mr. Rosedale. Let me just say in summary, Second Life, 
beyond being, as we have seen, a place to create and experience 
content, it is also a place that is creating businesses for 
some 50,000 people today, making money there, something that I 
as an entrepreneur am personally proud of, and in summary, I 
think that we as a nation have an ability to continue the 
technological leadership and development that will make the 
success of Second Life and virtual worlds broadly possible. 
Thank you.
    [The prepared statement of Mr. Rosedale follows:]

                      Statement of Philip Rosedale

    Chairman Markey, Ranking Member Stearns, and Members of the 
Subcommittee, we at Linden Lab very much appreciate this 
opportunity to share with you our vision of how virtual worlds 
are altering how people and organizations use the Internet and 
fundamentally changing the nature of communication itself. 
Through the Second Life Grid, we believe we are creating an 
evolutionary Internet platform with vast commercial, 
scientific, educational, and social potential.
    We founded Linden Lab in 1999 to develop a unique form of 
shared 3D entertainment. When we launched Second Life, in late 
2003, we had server space representing a 1-square-kilometer 
patch of ``land'' and about 500 residents. We welcomed our 
100,000th resident in January 2006. Since then, we have 
experienced phenomenal growth. Today, we have approximately six 
million unique registered users, roughly 50,000-60,000 of whom 
are online or ``in-world'' at any one time and roughly 900,000 
of whom have been in-world during the last 30 days. Our users 
exchange approximately $850,000 worth of ``virtual currency'' 
per day on our platform. Our servers support nearly 390 square 
miles of ``land,'' or the ``virtual'' equivalent of over six 
times the area of Washington, D.C.
    Why have we seen such explosive growth? The Second Life 
Grid is the next step in the fulfillment of the Internet's 
promise, where people create and consume content and also 
interact with each other in a 3D environment. The potential for 
commerce, education, entertainment, and other interaction in a 
3D environment filled with other people is far greater than in 
the flat and isolated 2-dimensional world of the World Wide 
Web.
    And so, while Second Life began with a large ``game-play'' 
element, today we see a vibrant mix of in-world businesses, 
real-world ``brick and mortar'' brands, educators, scientists, 
and curious and creative individuals. These groups create, 
engage in commerce, and mix with one another across what might 
otherwise be real gaps--caused by geography, culture, 
telecommunications, or lack of information.
    To help you understand what Second Life users are creating, 
we have prepared a short video, especially for this hearing. We 
will share with you typical Second Life stories and 
applications so that you can get a glimpse of the many ways in 
which people throughout the world are using Second Life to 
broaden their reach. You'll even see a familiar face or two.
    [video shown, and submitted separately]
    As you have hopefully seen, a lot of new and very 
innovative things are occurring ``in-world.''
    But on a broader scale, why does this matter? We believe it 
matters because virtual worlds, and particularly Second Life, 
hold great promise for America, for our economic development, 
and for our ability to compete globally. Most fundamentally, 
virtual worlds mark a leap forward in how we can communicate 
and work together over geographic distances. As you have seen 
in the video, in virtual worlds there is a sense of geographic 
``place'' and personal ``presence,'' even when users are miles 
or continents apart. In Second Life, you can ``see'' the other 
person, verbally speak with him, as well as chat with or 
``instant message'' him. You occupy a multi-tiered 
communications platform with dimensions that do not exist with 
e-mail, telephone calls, conference calling, or other 
platforms.
    This vastly expands our ability to collaborate over 
distance: large (or small) groups can hold conferences; view 
evidence, charts and other content; do language training; and 
design code, blueprints, and plans as if they were in the same 
room. Moreover, in a ``virtual'' atmosphere, even persons who 
have never met can establish rapport and trust with one 
another. This is one reason why large companies are effectively 
using Second Life across distributed communities of employees. 
Other reasons are the ability to transfer and view information 
immediately in Second Life, along with low production and 
infrastructure costs and barriers to entry.
    By making this type of ``immersive'' environment widely 
accessible, virtual worlds are poised to do what the telephone, 
the Internet, and e-mail did--reduce communications costs and 
create new and faster ways to produce, and thus increase, 
productivity. These increases in productivity tend to occur 
exponentially, so it is vital to America's growth that we lead 
the charge and develop the expertise and framework to master 
this technology.
    There is another aspect of the Second Life Grid of which I, 
as a lifelong entrepreneur, am particularly proud. As of today, 
more than 50,000 users are ``net gainers'' on the platform, and 
this number is rapidly growing. In other words, these users are 
successfully creating goods or services in Second Life and 
making a profit. Second Life has provided thousands of people 
with a way to supplement their incomes, through no significant 
expenditure but their own time and imagination.
    This demographic of creators is diverse--more than 40 
percent of active user time ``in-world'' is spent by women and 
an equal percentage by persons over 40--not a stereotypical 
``gamer'' profile. They range from semi-employed artists who 
design ``virtual'' offices to stay-at-home soccer moms and 
grandmothers who design clothing, furniture, and new 
applications. And since more than 70 percent of our users are 
outside of the United States, Second Life provides an 
opportunity--if we continue to master this technology--for 
America to become a ``net exporter'' of these services.
    I am proud of and inspired by all that the Second Life Grid 
is making possible, for all of these individuals and 
businesses, and I believe that our nation's technological 
leadership and standard of living ultimately will depend on the 
success of Second Life and other virtual worlds. We want to 
work with you to ensure we get it right.

                Important Applications of Our Technology

    People in Second Life have created over 1 billion in-world 
``objects,'' occupying total storage space of about 100 
terabytes. Most of these objects derive their value from their 
intellectual or artistic appeal, or sheer utility. Second Life 
is as diverse as the real world in terms of types of activities 
it offers--maybe even more so.
    Political Outreach and Community. Virtual worlds offer 
enhanced opportunities for public participation in government, 
including new ways for Members of Congress to connect with 
their own constituents or with groups located around the world. 
As you saw in the clip of Chairman Markey's address in Virtual 
Bali, virtual worlds provide a great opportunity for expanded 
political discourse, in ways not possible--or at least not 
cost-effective--in the physical world.
    Public luminaries such as Judge Richard Posner and former 
Speaker Newt Gingrich have held successful (and widely 
discussed) events in Second Life. The City of Boston has a 
Second Life prototype in the works, to extend community 
involvement and promote outreach. At the neighborhood level, 
residents of Queens have used Second Life to design their 
community garden.
    We are particularly proud that this very hearing is being 
streamed live into a 3D model of this hearing room, with in-
world residents watching from their seats in this virtual 
environment. You may even see some spontaneous text chat emerge 
from the gallery.
    Education and the Arts. A wide range of academic and 
educational organizations use our platform, for research and 
modeling, distance learning and real-time collaboration. We 
offer a program called Campus: Second Life, which provides 
semester-long grants of ``land'' to educators who want to teach 
in the virtual world. As of today, there are more than 400 
universities in Second Life and more than 4,500 teachers 
involved in Second Life.
    Health Care. Hospitals, doctors, and medical researchers 
are sharing information, designing new treatment options, and 
collaborating on medical research using Second Life. The Center 
for Brain Health at the University of Texas at Dallas, for 
instance, is using Second Life in treating autism. Through 
virtual therapy sessions, clinicians help patients develop 
cognitive and socialization skills and prepare them for 
practical tasks like job interviews. And many emergency ``first 
responders'' are using Second Life to train for scenarios that 
are difficult to stage in the ``real'' world.
    Recently, IBM opened its Virtual Healthcare Island, through 
which it will assess how information technology can transform 
health care delivery to meet patient needs. Earlier this year, 
Palomar Pomerado Health, which is opening a new state-of-the-
art medical center in San Diego in 2011, opened a simulation of 
the real-life campus now under construction. ``Virtual'' 
visitors will help the ``real'' hospital test new concepts for 
health care delivery, such as the use of RFID technology to 
ensure that patients en route to surgery arrive at the right 
place, on time.
    eCommerce. Virtual worlds offer opportunities both for 
large corporations seeking to increase productivity and for 
individual entrepreneurs who can profit from virtual ``micro-
economies.'' (The average ``virtual currency'' transaction in 
Second Life is approximately one dollar--which might buy, for 
instance, new accessories or clothes for your ``avatar'' or 
admission to a museum or musical event.) Individuals profiting 
in Second Life from their own creativity range from young 
artists to retirees to semi-employed workers in non-technical 
fields--people who may never before have had an opportunity to 
use technical talents for profit. Second Life's ``micro-
entrepreneurs'' also include many individuals who have physical 
disabilities that challenge their abilities in physical space, 
yet who thrive, create, and earn money in virtual space. 
Indeed, many persons with disabilities have launched new 
careers in-world and gained enormous fulfillment from their 
new, ``virtual'' activities.
    Major companies such as IBM, Intel, and Cisco also are 
making wide and effective use of Second Life as a platform for 
corporate communication and information. They, and countless 
other companies, use our technology to unite employees 
scattered across the globe--for collaborative projects, 
business planning, and distributing their companies' corporate 
culture. And many brick and mortar companies, such as Pontiac, 
Coca Cola, Starwood and Adidas, have used Second Life 
effectively and innovatively for brand-building and marketing.
    Public Diplomacy. Virtual worlds offer opportunities to 
connect people of different cultures, in ways not possible in 
the physical world. The USC Center on Public Diplomacy has 
created a Virtual World Project, for instance, to explore new 
ways of practicing public diplomacy. The Center has worked with 
the U.S. State Department, for example, to explore the 
possibilities that virtual worlds offer for hosting 
International Information Program initiatives, which can engage 
international audiences to create an environment more receptive 
to our national image abroad.
    Because of their strong sense of presence, ability to 
foster trust across borders, and multi-layered communication 
platforms, virtual world technologies offer a way to reach 
whole populations across the globe--even across unfriendly 
borders--that might be resistant to establishing rapport or 
trust through other means. Virtual technologies could provide 
the ``Voice of America'' for the new diplomatic age.

                   Potential Misuse of Virtual Worlds

    We believe that individuals within Second Life ought to 
have a considerable measure of creative and personal control 
over their own experience. And like any large platform, the 
sheer volume of in-world activity prevents Linden Lab from 
being able to police all in-world activities, at all times. 
That said, we take considerable steps to discourage and prevent 
illegal activity, and our users lend us a great deal of 
assistance in this endeavor.
    Our policies prohibit illegal activities, both in general 
and specific forms. And unlike some online communities, we have 
the ability to track, retain, and investigate information 
related to potential crimes--and thus the ability to closely 
assist law enforcement. Perhaps most fascinating, because so 
many of our users are deeply invested in Second Life, whether 
for economic or other reasons, they act to protect their own 
environment much as real world residents do. For instance, they 
will report inappropriate material in public areas, 
obstreperous or intrusive ``ad farms,'' suspected underage 
users, gambling, or other inappropriate activity. We in turn 
respond to these reports, if and when they arise, and suspend 
wrongdoers or report them to law enforcement.
    Among the issues we have tackled head on are gambling, 
money laundering, child safety, and so-called virtual 
``banking.'' In addition, we are working hard to make sure that 
we address the concerns of parents about the use of Teen Second 
Life.
    Gambling. Because there are a variety of conflicting 
gambling laws around the world, we chose last year to ban games 
of chance in Second Life. Residents are not permitted to 
operate casinos taking ``virtual currency'' on games such as 
Baccarat, Blackjack, Keno, Roulette, Pachinko, Gow, Poker, and 
any other game, new or old, that relies on chance. This policy 
also prohibits sports betting. Our ``G-team'' actively searches 
for such activities, and where we discover gambling, we remove 
all related objects from the in-world environment. We take 
escalated measures against egregious or repeat offenders, 
including suspension from Second Life.
    Money Laundering. We have a large team dedicated to dealing 
with fraud and abuse, and we have systems in place that make it 
extremely difficult to engage in money laundering. We also have 
sophisticated anti-fraud and fraud-tracking tools. Since we 
implemented them, our fraud and chargeback rates are 
approximately 0.3 percent--a small fraction of the online 
industry average of approximately 1.2 percent.
    Financial activity on our platform is tracked and 
monitored. Users generally purchase ``Linden Dollars'' through 
a credit or debit card, or PayPal. Users who sell Linden 
Dollars on the LindeX ``virtual currency'' exchange can then 
receive payment for this ``balance'' (usually through PayPal) 
only upon passing through verifiers and fraud tools--designed 
to detect fraud markers (inconsistent activity, suspicious 
transaction patterns, inconsistent account information, etc.) 
or a lack of credible corresponding in-world activity. 
Moreover, as a micro-transaction platform, large transactions 
(e.g., in the thousands of dollars) clearly stand out. The 
result is that using the LindeX exchange as a money laundering 
or fraud conduit would be extremely difficult.
    Teen Access/Internet Safety. Second Life's Adult Grid is 
just that: an adult environment. It is not intended for minors, 
and when discovered, minors are removed and banned. But we know 
teenagers are interested in virtual worlds, so in 2005 we 
created a separate secure environment for teen residents called 
Teen Second Life. We developed Teen Second Life for kids aged 
13-17. With the exception of Linden Lab staff (who are 
available to help) and educators (who undergo a background 
check), no adults are permitted to interact with these users. 
We are committed to providing a safe environment for our teen 
residents. As part of this effort, we provide advice to parents 
on how to stay involved with their teens and help them, through 
the use of our online safety tips, to protect their identity 
and communicate safely with others while online.
    In addition to these efforts, we have joined other leading 
technology companies as part of the Berkman Center's Internet 
Safety Technical Task Force. We have hired a former senior 
government Internet crime prosecutor to carry out these and 
other safety measures. Working with other leading technology 
companies, we collectively will focus our work on identifying 
effective online safety tools and technologies that can be used 
by companies across multiple platforms, to address Internet 
safety concerns.

                               Conclusion

    We are excited about the possibilities that lie ahead. The 
fast pace of technological advancement allows for continued 
improvements upon ways in which individuals can stay connected. 
Imagine the potential that the World Wide Web held in 1994. 
What was once a novel concept, hobbled by clunky software and 
limited connectivity, is now ubiquitous. Most of us cannot 
imagine life without the Internet. It has become an extension 
of our lives. The Second Life Grid offers an even more advanced 
way to network with fellow human beings.
    Through Second Life and other virtual worlds, the real 
world will become a better, more connected place.
    Thank you.
                              ----------                              

    Mr. Markey. Thank you, Mr. Rosedale, very much, and thank 
you for that incredible presentation, and I just want to 
stipulate right now so that everyone knows, the only 
resemblance between that avatar and me is the request that I 
made that because I am of Irish descent that they give me a 
green tie, and beyond that, any resemblance is completely 
coincidental.
    Let me now turn to recognize Susan Tenby. She is the online 
community manager for TechSoup. TechSoup is a comprehensive 
Web-based resource covering all aspects of nonprofit technology 
and channeling over $50 million yearly of technology product 
philanthropy into the nonprofit sector. Susan plays a large 
role in the development of nonprofits in Second Life. We 
welcome you, Susan. Whenever you are ready, please begin.

      STATEMENT OF SUSAN TENBY, SENIOR MANAGER, COMMUNITY 
                     DEVELOPMENT, TECHSOUP

    Ms. Tenby. Good morning, Mr. Chairman and members of the 
committee. My name is Susan Tenby, and I am here as the senior 
manager of online community development at TechSoup to talk to 
you about the potential of nonprofits in Second Life, and I am 
pleased to be here today. I have submitted my full statement to 
the committee to be made part of the permanent record, and my 
avatar name is Glitteractica Cookie.
    So TechSoup helps nonprofits get and use technology to 
further their missions. We have distributed over a billion U.S. 
dollars to the sector and technology product donations. We have 
community articles about nonprofits and technology, and 
specifically my role right now is to talk about online 
community social networks and Second Life for nonprofits 
virtual worlds.
    Social networks such as Facebook, YouTube, and MySpace are 
becoming the dominant force in shaping how society uses 
communications technology. Second Life is an example of a 
social network that combines the engagement of interactive 
tools with the richness of broadcasting. There is two-way 
interaction, user-created content, and international reach, and 
it is free to participate. Social networks such as Second Life 
have become an effective way to help nonprofits engage their 
communities, enlist new volunteers and donors and broaden their 
reach. Virtual worlds such as Second Life have forever 
revolutionized the way people and organizations connect, learn, 
and create with the element of fun. Identity exploration in the 
medium through the experience of character avatars allows 
people to empathize with communities that are different from 
their own.
    A number of philanthropic foundations are actively 
investigating the potential of Second Life to help them and 
their grantees better fulfill their missions. Through their 
Foundations Only Island, the John D. and Catherine T. MacArthur 
Foundation is leading the exploration of virtual philanthropy 
and soon will be sharing opportunities to help the social 
benefit sector both online and in the virtual space. The Ford 
Foundation has also expressed interest in this work, as have 
smaller foundations and individual contributors and donors.
    Second Life makes it easy to bring people together across 
the globe for no cost to the user to discuss issues such as 
climate change, human rights abuse, disability and other 
targeted communities. I am sure you all remember Congressman 
Markey's Second Life participation in the One Climate Bali 
conference. Our community of nonprofits, The Nonprofit Commons, 
often has what we refer to as mixed reality events; in fact, 
what you are seeing right here, feeding live audio and video 
both directions through the virtual world into the real world 
and back again. Nonprofits are already active and exploring 
virtual worlds in Second Life, and Second Life has emerged as 
the leading virtual world in the nonprofit sector. This tool 
allows you to capture audio, video, and text, chat 
communications and allows users to easily upload the media to 
the Web and share activities after they have occurred, offering 
a free and easy publishing system and an easy way to bring 
communications and archive all that happens in the virtual 
world on the traditional Web.
    So a few examples of nonprofit activities in Second Life 
are the TheWallSL.com, which is an example of a virtual Vietnam 
Veterans Memorial, which allows people who do not have access 
to the real-life memorial to visit it and to check in and read 
more about the people listed on the traditional Web. The 
disability community, as we mentioned earlier, is well 
represented, and Second Life gives them a venue to discuss and 
collaborate with others where they wouldn't previously have had 
access. In some instances, for example, people who are 
wheelchair-bound are given the opportunity to walk, run or even 
fly. It provides a safe environment for support and recovery 
services such as Alcoholics Anonymous and Narcotics Anonymous. 
The American Cancer Society's Virtual Relay for Life made a 
Second Life version of their race where they raised $118,000. 
They also have ongoing cancer support group meetings. It 
provides a rich educational experience that would not be 
possible in real life. For example, in Second Life you can walk 
through a human heart or take a spaceship up in space and 
explore. Organizations like Global Kids are providing youth 
with a participatory and creative way to learn about current 
and historical events.
    Our goal with The Nonprofit Commons in Second Life is to 
play the role of the convener, to create a collaborative 
learning environment, a community of practice to help 
nonprofits meet with each other. We do this through a structure 
where we have built a community and offices. We have regular 
meetings in the virtual world, and we have created a seedbed 
for experimentation and a comfort zone and structure that we 
have provided. We are trying to create a program with other 
innovators in the space so nonprofits across the globe can take 
part in participatory learning and connect to the virtual 
donation connections and volunteers to benefit their real-life 
missions.
    Thank you for the opportunity to appear, and I am ready to 
answer questions.
    [The prepared statement of Ms. Tenby follows:]

    [GRAPHIC] [TIFF OMITTED] 50918.010
    
    [GRAPHIC] [TIFF OMITTED] 50918.011
    
    [GRAPHIC] [TIFF OMITTED] 50918.012
    
    [GRAPHIC] [TIFF OMITTED] 50918.013
    
    [GRAPHIC] [TIFF OMITTED] 50918.014
    
    [GRAPHIC] [TIFF OMITTED] 50918.015
    
    [GRAPHIC] [TIFF OMITTED] 50918.016
    
    [GRAPHIC] [TIFF OMITTED] 50918.017
    
    [GRAPHIC] [TIFF OMITTED] 50918.018
    
    [GRAPHIC] [TIFF OMITTED] 50918.019
    
    [GRAPHIC] [TIFF OMITTED] 50918.020
    
    Mr. Markey. Thank you, Ms. Tenby, very much.
    Our next witness is Dr. Colin Parris. He is the vice 
president of Digital Convergence for IBM, and we welcome you, 
sir. Whenever you are ready, please begin.

   STATEMENT OF COLIN PARRIS, PH.D., VICE PRESIDENT, DIGITAL 
           CONVERGENCE, IBM RESEARCH, IBM CORPORATION

    Mr. Parris. Good morning, Chairman Markey, Ranking Member 
Stearns and members of the congressional subcommittee. It is my 
honor to be here to testify before the subcommittee on what we 
consider to be a significant evolution in the Internet.
    As readily evidenced by the rapidly growing awareness to 
heightened media coverage and ever-broadening usage, we have 
firmly entered a new era in the evolution of Internet 
capabilities. This era augments the significant capabilities of 
the Internet by extending the current participation, 
collaboration and innovation functionalities to create what we 
at IBM call the 3D Internet. At IBM, we firmly believe that 
virtual worlds like Second Life, which are one facet of the 3D 
Internet, have the potential to transform enterprise and 
government processes by increasing top- and bottom-line growth, 
improving efficiency and productivity, and augmenting our 
ability to innovate and spur entrepreneurial growth. These 
virtual worlds allow the deepening and enriching of a 
customer's product, service, or program experience, promoting 
and supporting commerce. They also increase individual and team 
learning capabilities, driving increased innovation with new 
products and services.
    We are working with our large enterprise clients and 
government entities to leverage these emerging technologies in 
order to unlock the business value that we believe will have a 
direct economic benefit to all industries. This technology will 
spur entrepreneurial activity and drive business growth, 
resulting in accelerated job creation and prosperity.
    To unlock this business value, there is a significant 
number of enterprise, government, educational, and nonprofit 
entities that are currently experimenting with new applications 
and services. These emerging applications can be loosely 
grouped into four functional categories. These are commerce, 
collaboration, training, and process management. Applications 
in the commerce category utilize the 3D spatial and simulation 
capabilities of virtual worlds to provide customers with a 
richer, more immersive experience of the product or service in 
an environment that can be customized to look and seem like 
their own. These applications support the lifelike envisionment 
of a new city from acclaimed waterfront lands, of a travel 
experience with a virtual staff giving a tour of the hotel and 
sights of interest, of a green data center infrastructure and 
process design, or of a newly remodeled kitchen or home. These 
enhanced pre-sales activities can increase the percentage of 
successful sales and the level of customer satisfaction.
    Applications in the collaboration category are those that 
deepen the collaboration capability using 3D spatial functions 
to create new presentations or showings that leverage the 
space, distance, and simulation capabilities of virtual worlds. 
This would allow remotely distributed teams to collectively 
design and develop products, services, and processes, 
leveraging spatial simulation and shared experience 
capabilities to better communicate their needs and to foster 
greater innovation and reduced speed to market.
    Applications in the training category leverage both the 
learning effectiveness associated with simulation-based 
instructions and the shared avatar experience of virtual worlds 
to allow team-based learning. In addition to the increased 
effectiveness of the training, there are significant cost 
avoidance benefits associated with reduced travel, lodging, and 
wasted time. These applications provide the improved training 
of civilian and military forces in situations of natural or 
manmade disasters or support the more accurate certification of 
expertise in complex, dangerous, or costly manufacturing and 
engineering tasks.
    Process management applications leverage the simulation, 
spatial and immersive capabilities of virtual worlds to model 
and depict business, government, and social processes. This 
permits insights to be gained by allowing shared observation 
and analysis of the process through rehearsal and critical 
event simulation. These applications allow the optimizing of 
manufacture and healthcare, transportation and other processes 
using both physical model simulations and real people 
personified as avatars. These applications can allow us to 
increase productivity gains and cost gains before real-world 
investments are met.
    The widespread adoption of these applications, however, is 
dependent on several underlying technological assumptions that 
are critical for success. These include improving the endpoint 
experience, providing an enterprise grade virtual world 
infrastructure, integrating legacy business systems and 
creating interoperability between virtual worlds. As these 
emerging capabilities are another evolutionary step in the 
development of the Internet, it is clear that we must continue 
leveraging the policy framework that has served us well and on 
which we have built significant experience and viable 
processes.
    Eleven years ago, when the Internet era began, government 
and industry came together to create an appropriate policy for 
global electronic commerce, one that would stimulate its growth 
and development while addressing the policy-related issues. I 
understand you were there, Chairman Markey, when the framework 
for global economic commerce was announced by the White House. 
That framework, with its fundamental principles of allowing the 
private sector to lead, of avoiding undue restrictions, of 
enforcing minimalist, predictable, legal environments, still 
hold true today in this new evolution of the Internet.
    I thank you for your time and the opportunity to share 
these few remarks on this very significant evolution before us.
    [The prepared statement of Dr. Parris follows:]
    [GRAPHIC] [TIFF OMITTED] 50918.021
    
    [GRAPHIC] [TIFF OMITTED] 50918.022
    
    [GRAPHIC] [TIFF OMITTED] 50918.023
    
    [GRAPHIC] [TIFF OMITTED] 50918.024
    
    [GRAPHIC] [TIFF OMITTED] 50918.025
    
    [GRAPHIC] [TIFF OMITTED] 50918.026
    
    [GRAPHIC] [TIFF OMITTED] 50918.027
    
    [GRAPHIC] [TIFF OMITTED] 50918.028
    
    [GRAPHIC] [TIFF OMITTED] 50918.029
    
    [GRAPHIC] [TIFF OMITTED] 50918.030
    
    [GRAPHIC] [TIFF OMITTED] 50918.031
    
    [GRAPHIC] [TIFF OMITTED] 50918.032
    
    [GRAPHIC] [TIFF OMITTED] 50918.033
    
    [GRAPHIC] [TIFF OMITTED] 50918.034
    
    [GRAPHIC] [TIFF OMITTED] 50918.035
    
    [GRAPHIC] [TIFF OMITTED] 50918.036
    
    [GRAPHIC] [TIFF OMITTED] 50918.037
    
    [GRAPHIC] [TIFF OMITTED] 50918.038
    
    Mr. Markey. Thank you, Dr. Parris, very much.
    Our final witness, Dr. Larry Johnson, leads the New Media 
Consortium, a not-for-profit association of more than 250 
world-class colleges, universities and museums focusing on 
emerging technologies. We welcome you, sir. Whenever you are 
ready, please begin.

STATEMENT OF LARRY JOHNSON, PH.D., CHIEF EXECUTIVE OFFICER, THE 
                      NEW MEDIA CONSORTIUM

    Mr. Johnson. Good morning, Chairman Markey and Ranking 
Member Stearns and the rest of the committee. Thank you for 
allowing me this time with you, and let me begin by applauding 
your leadership in this arena. I think the work you are doing 
is extraordinary.
    As you noted, my name is Dr. Larry Johnson, and I also have 
an avatar. Among the many exploratory projects that the New 
Media Consortium does, for more than 2 years we have led the 
largest educational project of any kind in any virtual world, 
one that involves hundreds of institutions and more than 7,500 
individuals, educators and students all working and learning in 
the virtual world of Second Life. The project is self-
sustaining, and it recovers all of its costs via operations and 
activities that are conducted within that virtual space.
    My comments to you this morning are the reflection of the 
voices of that community, as well as my own. They see the work 
they do in Second Life as another facet of the work that they 
do on their campuses, and that is the first point that I hope 
to leave you with this morning about the nature of virtual 
worlds. Any dichotomy drawn between the activities in the real 
world and that of the virtual world we believe is artificial at 
best. Behind every avatar is a thinking, living person, and in 
the case of my community, we see little reason to distinguish 
one's virtual identity from the other aspects of yourself. I am 
the same person whether you encounter me here in this room or 
on the NMC's campus in Second Life.
    My second point speaks to the notion of reality and 
unreality. Whatever happens in a virtual space, the space 
itself simply extends our notions of the real world, just as 
the Web extends our notions of the network. A virtual world 
like Second Life or other platforms like Project Wonderland are 
not games, serious or otherwise, and referring to the work done 
as games limits both the potential of the technology and the 
work it is enabling. After 2 years of focused research and 
demonstration projects in virtual spaces, we see them as 
nothing less than the evolution of the Internet from the flat 
two-dimensional Web in which it now resides into three 
dimensions, with all the richness and depth that it entails.
    And my third and most important point about the nature of 
virtual worlds is this: The emerging landscape of virtual 
worlds represents as profound an opportunity, as profound a 
driver of changes in the ways we think, learn and work as any 
technology that has ever preceded it, and more so.
    I am reminded of similar opportunities our Nation has faced 
in the past and how bold leadership and vision positioned 
America to make the most of those great moments in time. When 
the country was expanding westward, the Morrill Act set aside 
lands for universities, ensuring that education would flourish 
as the country expanded. When it was clear that commercial 
interests would only provide electricity to the cities, where 
profits were easy, the Rural Electrification Act brought the 
modern age to all Americans. And when television was new, 
leaders like Freda Henoch stood up to ensure that channels 
would be set aside for learning. And in 1991, when the World 
Wide Web was still just an idea, the High Performance Computing 
and Communication Act ensured that the United States would have 
the infrastructure in place to lead the 1990s, as it did.
    We very much need that kind of visionary leadership today. 
Already, an industry is beginning to form an ecosystem around 
this technology, and more than 4,400 people make a full-time 
living as professional developers in the virtual world of 
Second Life alone. There are nearly 55,000 small business 
operators who operate in the microeconomy there. More than 
1,400 islands have been designated for educational use in 
Second Life, which is 10 percent of the entire 65 square miles, 
which is quite remarkable, I think, and there are probably, by 
my estimate, about 4,000 educational projects going on in 
Second Life. There are so many that it is actually not possible 
to keep up with them anymore.
    The future of virtual worlds that is yet to unfold is one 
that promises an exponential leap over what is possible with 
the technology today. Just over the horizon are cinematic-
quality graphics, as several of the members have noticed, as 
well as seamless integration with business and other 
applications. Advances in social operating systems, in mobile 
devices and wireless technology are going to extend the 3D web 
in ways that will weave it transparently throughout our lives, 
and that web will connect us to each other, to goods and 
services, to knowledge and information in ways that we can only 
begin to imagine today. We stand at the frontier of that soon-
to-come future right now.
    Thank you for allowing me this time to reflect on its 
profound potential.
    [The prepared statement of Dr. Johnson follows:]
    [GRAPHIC] [TIFF OMITTED] 50918.039
    
    [GRAPHIC] [TIFF OMITTED] 50918.040
    
    [GRAPHIC] [TIFF OMITTED] 50918.041
    
    [GRAPHIC] [TIFF OMITTED] 50918.042
    
    [GRAPHIC] [TIFF OMITTED] 50918.043
    
    [GRAPHIC] [TIFF OMITTED] 50918.044
    
    [GRAPHIC] [TIFF OMITTED] 50918.045
    
    Mr. Markey. Thank you Dr. Johnson, very much.
    And now we will turn to questions from the members of the 
subcommittee, and the chair will recognize himself.
    Mr. Rosedale, you state in your testimony that 70 percent 
of the users of Second Life are outside the United States. Is 
there a correlation between the availability of high-speed, 
truly high-speed broadband overseas and its high growth 
overseas?
    Mr. Rosedale. Yes, Chairman Markey, I think there is. 
Seventy percent of Second Life users are outside the U.S., and 
as you suggest, the rate of growth of those users within 
different marketplaces globally does seem to be related to the 
pervasiveness of broadband, as well as the general availability 
within social groups of both broadband and the kind of 
computers necessary to run something like Second Life. We, for 
example, see extremely high rates of growth more recently in 
Japan, where broadband access and computing is fairly 
universal, at least in urban areas. So I think there is a high 
sensitivity between broadband and 3D computing and the ability 
of these types of social virtual worlds to truly become 
generally used.
    Mr. Markey. Now, I understand that Linden Lab reviews every 
transaction in Second Life over $10. What sorts of transactions 
would raise red flags for you?
    Mr. Rosedale. Well, that question is related to essentially 
the internal Linden dollar currency. In Second Life, when users 
wish to withdraw that currency into local denominations, we 
take a look at those transactions. We have a variety of systems 
in place, as you mentioned, one that for sure looks at 
everything over $10. The virtual world demonstrates patterns of 
use when you look at, for example, avatars' transactions there, 
that are relatively easy with appropriate software and systems 
to discriminate and compare what look like routine transactions 
in the virtual world with something undesirable like, for 
example, people trying to do money laundering. Also, because 
the virtual world is a microtransaction environment where the 
average transaction has about a size of one U.S. dollar, it is 
relatively easy to spot larger transactions and then take a 
look at them and catch them. We have managed to, for example, 
maintain a fraud rate on the billing systems with Second Life 
which is about, for the last few months, a fraction of a 
percentage point, about 0.2 percent, where the industry average 
for e-commerce fraud is closer to about 1 percent. So we think 
that we can act as a model for the type of fraud systems that 
are going to be necessary to keep virtual world transactions 
legitimate.
    Mr. Markey. And what recourse would a consumer have who 
felt aggrieved by a transaction in Second Life?
    Mr. Rosedale. Well, like any open platform, the nature of 
individual transactions between individual users is not 
something that we attempt to regulate. Clearly, just like a 
transaction in the real world, in the virtual world, the buyer 
and seller have to be careful or be aware of what they are 
doing with each other. That said, the virtual world has a 
degree of accountability and journaling and traceability which 
actually in many ways is better than the real world. The 
likelihood of, for example, purchasing stolen merchandise is 
much lower in the virtual world due to the markability, the 
traceability of ownership, as an example, of a digital object. 
So I think the probability that consumers will be distressed by 
the transactions they make there is probably lower on a sort of 
an hour-to-hour basis as comparing Second Life to life in a 
major city. So I think that we are in a reasonably good place 
there overall.
    Mr. Markey. Thank you.
    Dr. Parris, what types of jobs do IBM employees perform in 
Second Life?
    Mr. Parris. There are a variety of jobs there, Chairman 
Markey. I will put them in the category I discussed before. We 
actually have sales opportunities. The IBM.com has a sales 
presence in Second Life. We also have a telecommunications 
island, a healthcare island, and a retail island, so we have 
sales opportunities, so sales jobs are being performed there. 
We have development jobs being performed there, because it has 
been used as a platform for collaboration on designs, and these 
are collaborations that can take place across the full breadth 
of a global company like IBM. We have training types of 
opportunities that go on there, and we also have opportunities 
related to process management and process optimization that 
happen within Second Life.
    Mr. Markey. Thank you.
    My time has expired. The chair recognizes the gentleman 
from Florida, Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Rosedale, do any of the presidential candidates have an 
avatar in Second Life?
    Mr. Rosedale. I am actually not sure. You know, Second Life 
is so large at this point that----
    Mr. Stearns. Oh, you don't even know?
    Mr. Rosedale. We are often not involved in the creation of 
avatars such as Chairman Markey's avatar. So I am actually not 
sure. To my knowledge though, I don't think that the current 
presidential race has begun in earnest in Second Life.
    Mr. Stearns. OK. What is the difference--since you started 
the company, who is Linden Lab? Are they the company you hired? 
Why didn't you call it Rosedale?
    Mr. Rosedale. You know, the name Linden Lab, which Second 
Life users often ask about, comes from the name of the small 
alley in San Francisco where we had our first office.
    Mr. Stearns. Oh, I see. OK.
    Mr. Rosedale. We had a fondness to that street name, and so 
we named the company that.
    Mr. Stearns. Just another quick question. I notice in the 
resume you said you announced that you are stepping down as CEO 
on March 14. Why are you stepping down? It looks like you guys 
are just starting.
    Mr. Rosedale. You know, we are about a 250-person company. 
We believe that the sort of demands of growing this complex 
piece of software are going to cause us to--as well as our just 
general user growth and revenue growth--are going to make this 
a much larger company. I personally am very passionate and 
involved in the fairly detailed design of and skeletal 
construction of----
    Mr. Stearns. Rather than the management of something like 
that. I understand.
    Mr. Rosedale. So I am less interested in that sort of large 
company management.
    Mr. Stearns. I understand that you have a Second Life for 
teenagers, too, from 13 to 17, and obviously this Second Life 
that you have is for adults. So the question is, how do you 
keep the adults--I assume you try to keep the adults out of the 
teen Second Life and keep the teens out of the adult Second 
Life. How do you do that?
    Mr. Rosedale. Well, obviously the members of the 
subcommittee have discussed this already. We take child 
protection and access to content for minors very seriously. As 
you mentioned, we have an area of Second Life, Teen Second 
Life, which is just for teenagers. Because that area is just 
for teenagers, and because the environment is social with lots 
of people generally in contact with each other and 
communicating at the same time, you can--and we are actually 
following a best practice that has been pioneered by a number 
of other companies here. You can encourage the teenagers to 
actively identify and warn us, the company, about anyone whose 
language or behavior suggests that they are not teenagers, and 
in fact, this method is a best practice due to the different 
ways in which teenagers normally communicate on the Internet--
--
    Mr. Stearns. I think the problem would be that once a 
person is in there, he or she could camouflage themselves. What 
do you take as a front end to stop people from getting in, 
assuming that they give the money, they are ready to go, but 
let's say they are 55. I mean, how do you check?
    Mr. Rosedale. Like most Internet services, there are of 
course limits to how much we can check across an electronic----
    Mr. Stearns. Because of personal privacy.
    Mr. Rosedale. Right. Exactly. But we do, however, require a 
stronger degree of initial identity for signing up for the teen 
version of Second Life.
    Mr. Stearns. Do you ask for a Social Security number?
    Mr. Rosedale. We do not ask for a social.
    Mr. Stearns. Do you look at driver's licenses?
    Mr. Rosedale. We don't ask for a driver's license. We ask 
for----
    Mr. Stearns. If you don't have a Social Security number and 
you don't have driver's license, how do you know the age of the 
person?
    Mr. Rosedale. We ask for credit card information, telephone 
information and, of course, we ask the user to self-describe 
their age. But as I said, this----
    Mr. Stearns. A lot of people would not give the truth. If 
they are going there with overt intent or covert intent, they 
wouldn't necessarily be truthful. So at the front end it 
doesn't sound like you are screening them beyond their own 
word.
    Mr. Rosedale. We are screening them as much as we can 
across this type of connection and in keeping with what, 
generally, Internet services are able to ask about their users. 
But as I mentioned before, the segregation of that audience 
into its own world and the fact that it is rigorously self-
policed, people are very aggressive about identifying anyone 
who they think shouldn't be there, along with the vernacular of 
conversation that kids take as opposed to adults has reduced--
has at least thus far provided us with no evidence of----
    Mr. Stearns. Is the FBI involved at all when you find 
people? Do you actually bring in the FBI?
    Mr. Rosedale. We actively and proactively have involved the 
FBI in both--well, more actually main grid, as we say, 
activities on the adult side where we have involved them in 
looking into cyber crimes, where people have tried to deny 
service.
    Mr. Stearns. My time is expired. One last question. You 
mentioned you are not proud that Second Life is making money, I 
think you said. Can you explain why you are not proud it is 
making money, because I think to exist it has to make money.
    Mr. Rosedale. Oh, no.
    Mr. Stearns. Did I misinterpret? You said something to the 
effect----
    Mr. Rosedale. I was actually saying that as an entrepreneur 
myself, a lifelong entrepreneur, I am very proud that users in 
Second Life----
    Mr. Stearns. Are making money?
    Mr. Rosedale [continuing]. Have been so, as Dr. Johnson was 
saying, have been so successful actually making money for 
themselves in the world. There are 50,000 or so people, 
individuals, who appear to be making a sort of profit net of 
fees in Second Life.
    Mr. Markey. The gentleman's time is expired.
    Mr. Stearns. Thank you.
    Mr. Markey. Strong capitalist sentiments in Second Life.
    The chair recognizes the gentlelady from California, Ms. 
Harman.
    Ms. Harman. Thank you, Mr. Chairman. I just want to note 
the lovely humor in this hearing in addition to the serious 
content. It is April 1, and I thought I would recommend to 
everybody the first page of today's Roll Call, which is truly 
hilarious, and we should laugh some of the time. I trust the 
panel and you agree. Yes. OK.
    Now, to the more serious stuff, I have in my hand something 
from the London Sunday Times online, and the heading is 
``Virtual Jihad Hits Second Life Website.'' I would like to ask 
unanimous consent to put this in the record.
    Mr. Markey. Without objection, it will be included in the 
record.
    [The information appears at the conclusion of the hearing.]
    Ms. Harman. Thank you.
    The first two paragraphs read this way: ``Islamic militants 
are suspected of using Second Life, the Internet virtual world, 
to hunt for recruits and mimic real-life terrorism. Police and 
the intelligence services are concerned that it may have been 
infiltrated by extremists to proselytize, communicate and 
transfer money to one another. Radicals may also be responsible 
for `virtual' terrorist attacks in which buildings depicted on 
the website are blown up.'' Now, these are just allegations, 
and I am certainly not asking these witnesses to confirm these 
allegations, but I do want to ask about the general subject. 
You heard me in my opening remarks say that there is a huge 
plus side to this, and then there is a possible huge downside 
to this. I am not advocating censorship. I want to repeat that 
to all the groups out there listening in. I am not advocating 
censorship. But I am asking what we can do in clear-eyed 
fashion to make certain that these glorious tools are not 
abused and not just abused but changed into tools that 
facilitate the use of terror attacks on innocent civilians 
around the world, something that we are increasingly getting 
used to.
    So let me start with Mr. Rosedale. You said in your 
testimony that Second Life prohibits illegal activities, 
including money laundering and gambling. Can you tell us more 
about what specifically you do?
    Mr. Rosedale. So as I mentioned earlier, when people 
actually extract money from the virtual world, we run that 
money through several processes, and we built these over the 
last couple of years and think they are a good model for this 
type of system in general. First is that payouts which are 
larger than $10 U.S. in value are scrutinized. When we say that 
we do that, we mean that a person looks at the record of 
transactions that have been made in the virtual world. We have 
a number of tools that allow us, for example, to aggregate 
together account activity over multiple accounts if there is a 
risk that those accounts are collectively being used to, say, 
move money around in the virtual world. We believe that the 
degree of scrutiny that is created by the transaction history 
that one creates as they use a virtual world is quite rich, and 
the pattern recognition of non-standard behavior, something 
outside the rather obvious range of consumption that people 
make when they are using the virtual world, whether for work or 
for entertainment, is easy enough to spot that we are very 
likely to see on the money side those types of transactions 
happening.
    More broadly, let me add two things. One is that, with 
regard to a concern about specifically terrorist activities, 
though there has certainly been discussion about this, we as a 
company and as the final point of monitoring have never seen 
any evidence that there is any such activity going on in Second 
Life, but the second thing I think more broadly about virtual 
worlds to be said is that because we have a stronger identity 
there, a kind of a history of activity, a history of financial 
activity in many cases that is recorded, it is likely that 
virtual world activities are somewhat more policeable and the 
law somewhat more maintainable within virtual worlds than it is 
today on Web sites, and I think that point is an important one.
    Ms. Harman. Well, let me just ask the other witnesses, too, 
do you have a comment on this or a suggestion to be made? 
Clearly these allegations in the Sunday Times I assume were not 
made lightly. It sounds from your testimony as though you think 
that they are not true because you would see this activity, but 
nonetheless, do other witnesses--my time is running out--have 
any suggestions about what we can do to assure that this 
glorious tool is not abused in this very serious way?
    Mr. Johnson. If I might speak to this one, in my 2\1/2\ 
years of being in Second Life virtually every day and 
interacting with thousands of people, the one thing that I have 
come away with is a tremendous sense of how much the people in 
there regard that community, and I think the strong asset in 
that particular virtual world that it has against that type of 
activity are the residents themselves, who simply would stand 
up almost as one if they saw things of real concern like that. 
I can assure you, and I am sure Philip could echo, that they 
are not shy about sharing what they see in that world if they 
don't think that it is proper behavior.
    Mr. Markey. The gentlelady's time has expired.
    The chair recognizes the gentleman from Illinois, Mr. 
Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. I do not have an 
avatar. I am not sure that I am going to get one either, but it 
is interesting. But this brings up some other issues, and Dr. 
Johnson, in your written testimony you point to the OECD 
rankings, and this is a thing we have debated here numerous 
times and claim that the United States is in poor position to 
take advantage of virtual worlds such as Second Life. Since my 
time is short and in the style of Chairman Dingell, I have four 
quick questions, if I have time afterwards I will let you 
elaborate more, but a yes or no would be helpful. Are you aware 
that Dr. George Ford completely debunked the OECD rankings at 
our hearing last year by demonstrating that if every country 
achieved the goal of 100 percent broadband penetration, the 
United States would actually drop in the rankings under the 
OECD methodology of measuring broadband lines per capita?
    Mr. Johnson. No.
    Mr. Shimkus. Are you aware that based on Linden statistics, 
the United States has the most Second Life users of any 
country, representing one-third of the active Second Life 
population, almost four times the second place United Kingdom 
and more than the next five countries combined?
    Mr. Johnson. Yes, I am.
    Mr. Shimkus. You are very good with this yes and no. Most 
folks would like to interject here. Are you aware that even 
according to OECD, the United States has 66 million broadband 
subscribers, more than any other country, representing almost 
one-third of the broadband subscribers in all OECD countries 
and more than the next three countries combined?
    Mr. Johnson. I am aware that we have a solid number more 
people with broadband than anyone else.
    Mr. Shimkus. And are you aware that if we break U.S. 
residential broadband penetration down by State to make the 
size comparisons more realistic, U.S. States would take eight 
of the top ten spots if ranked with the European Union 
countries, and the bottom three States would be higher than the 
EU average?
    Mr. Johnson. No, I am not aware of that.
    Mr. Shimkus. And why I go to this line of questioning, I 
have done this before, is that I am ticked off at us being 
compared to Europe. I served in Germany 3 years as an Army 
officer. You could drive across Europe in 5 hours. I can't 
drive across the State of Illinois in 5 hours. It is just 
unfair to do a comparison. It is like apples and oranges, and 
so that is why I get on this little rant every now and then. We 
are doing great, and I think we will continue to do it. I am a 
pro-market competitive Republican. We have got to encourage 
capital flow, businessmen to take risks, get a return on that 
investment. I am always concerned on the government 
intervention side, government picking winners and losers, 
manipulating other people's properties, and so that is where I 
come from. I may give you some time if I can get through my 
other lines, but I appreciate those responses, and that is kind 
of my frustration on this.
    Mr. Rosedale, I understand that you are only allowing 
certain authorized users to attend this virtual version of this 
hearing in Second Life and are blocking others from attending. 
Is that because you recognize that sometimes some users can 
interfere with others' enjoyment of your service, making 
network management necessary in certain circumstances?
    Mr. Rosedale. Well, I would say broadly that yes, Second 
Life is a very powerful environment or platform allowing people 
to do lots of different things within it, and therefore much 
like in the real world, you do often establish, say, a capacity 
limit. In Second Life, you can even have pragmatic demands on 
whether someone can, say, bring a really elaborate avatar to an 
event where the presence of that avatar would essentially slow 
down the performance of the computers of everyone else at the 
event. So this particular event, I am not even sure how we set 
this one up. I think we did a simple ask to be here, and we 
will generally let you in. There is a pragmatic limit today in 
virtual worlds on how many people can be in the same room at 
the same time, so we also often have to do an invite list for 
events that might draw more than, say, 100 or more people 
interested in attending.
    Mr. Shimkus. Yes, that is great. I appreciate those 
comments.
    Mr. Rosedale again, what about proselytizing? I am a 
Christian fundamentalist. Are there churches and are there 
church groups and communities or others that are actively using 
this?
    Mr. Rosedale. There are definitely many church communities 
that are using Second Life. I think as we touched on, the 
power--one of the significant powers of Second Life and 
generally of virtual worlds is their ability to very rapidly 
establish rapport between individuals, potentially individuals 
who are across cultural or even language barriers that they 
wouldn't normally be able to come into contact across, and 
therefore I think that messaging like that and group formation 
of that sort is something that will be greatly changed and, I 
think, enhanced by virtual worlds.
    Mr. Shimkus. Thank you, Mr. Chairman. If I could just for 
one second just finish up on--I am a democracy and freedom 
advocate around the world. I deal with democracy movements. One 
would be like the dictatorship in Belarus, where they attack, 
they kill journalists, they deny freedom. This is really a 
possibility if people could get on the Web and broadband 
capabilities for another way to enter discussion, freedom, 
networking of democracy advocates around the world. If they are 
doing it with terrorism, the flip side could be true also.
    Mr. Rosedale. I think that in general what we are seeing, 
some of the conversation and debates and town halls, as we 
mentioned earlier, that have gone on in Second Life are great 
examples of a very direct and honest and rapid conversation 
that one can have safely with a variety of interested people, 
and I think that for politics generally, this is something that 
will be, I hope, very empowering.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Mr. Stupak [presiding]. Thank you.
    Ms. Tenby, how many nonprofits currently operate in Second 
Life?
    Ms. Tenby. I do not know the actual number of all the 
nonprofits in Second Life, but I can respond from my own 
community. So my own community started with just a handful, 
about 20, and we now have over 400 members, 400 nonprofits 
represented. We have currently two sims which are nonprofits--
sim is an island basically. We have two nonprofit islands 
housing about 70 or so--70 to 75 organizations, and the other 
members are volunteers of organizations. So about 400 members 
from approximately 60 different countries.
    Mr. Stupak. Thank you.
    Let me ask unanimous consent that the American Cancer 
Society wishes to put in a statement. Without objection, so 
ordered. It will be entered in.
    [The information appears at the conclusion of the hearing.]
    Mr. Stupak. Mr. Rosedale, what is the minimum high speed 
residents need in order to get into the virtual world? You have 
to have high speed, so what is the minimum requirement, and 
what is the ideal?
    Mr. Rosedale. The minimum requirement in terms of bandwidth 
is basically any broadband connection, whether wired or 
wireless. Second Life typically operates at several hundred 
kilobits per second, meaning that it will basically work on any 
consumer broadband network. That said, Second Life scales and 
can scale to meet the maximum amount of available bandwidth, 
which means that the quality of the virtual world experience 
will be sensitive to the quality of the broadband connection as 
well as the computer that an individual has. So as we improve 
the technology, we will see rapid commensurate gains in the 
quality of the virtual world experience.
    Mr. Stupak. In my opening statement, I mentioned being 
chair of Oversight and Investigations, all the work we have 
done on child predators online and Internet service providers, 
and there were some questions along those lines. It appears 
that your review, if you will, of an application is based on 
credit card, telephone number, and then you ask age. But once 
they get into your virtual world, how do you--other than other 
people raising suspicions, do you have any other mechanisms or 
any other safeguards you have in place to try to find these 
online predators?
    Mr. Rosedale. Well, to date, we have--as we mentioned, we 
have a general ability which we use to review the history of 
both communications transactions and behavior generally.
    Mr. Stupak. How long do you keep that communications 
transaction?
    Mr. Rosedale. We typically keep that information for a 
period of several weeks, which is enough to review any 
allegations that are made. The community is aggressively self-
policed. Where we have any information that we need to be 
concerned, we certainly can and will as a staff look into the 
activities that are going on in the world. I should note that 
we have to date had very little to no activity of concern, and 
in those cases we have been very proactive as a company about 
bringing these things to the attention of the authorities. So 
again, we view child protection as being paramount, and beyond 
the concerns about maintaining an open----
    Mr. Stupak. And have you set up any kind of a sting 
operation within your organization----
    Mr. Rosedale. We have tried to----
    Mr. Stupak [continuing]. To see who is out there?
    Mr. Rosedale. We have not, although I suspect that other 
law enforcement agencies may well have done so, but we as an 
organization have not, nor have we felt the need at this point 
to do so.
    Mr. Stupak. Dr. Johnson, if I may, many of these 
applications are designed to keep the audience engaged, and 
especially with education, they reward them for the time 
investment. Do you believe that a user could be logged onto 
virtual worlds for too many hours a day, basically addicted? 
Have you seen that with----
    Mr. Johnson. That is a concern that I think goes across the 
video game market certainly, and I think it is something that 
we need to be aware of. In my own experience, I have not really 
seen any situations like that in an educational context, the 
activities that we have for students to be engaged in are 
fairly well defined. You know, of course, they can occupy the 
world on their own time, but we are not seeing any issues about 
that. There are lots of conversations that are held within 
education on this topic. I think as a general rule, educators 
are very sensitive to the downside of spending too much time on 
computers in general.
    Mr. Stupak. Right, but after they were logged onto your 
educational sites and they went into another part of the 
virtual world, would you know that?
    Mr. Johnson. No.
    Mr. Stupak. Mr. Rosedale, are there any efforts to limit 
excessive use of their application?
    Mr. Rosedale. You know, this question of excessive use I 
think is a fascinating one. It is very sensitive to what the 
application use is. Second Life, of course, and virtual worlds 
generally, will allow so many different types of use that the 
question of whether addictive or overuse is problematic is 
highly sensitive to the activity. If as a kid you are hanging 
around in virtual worlds trying to kill monsters, it is almost 
unquestionably the case that too much of that is going to make 
you unable to perform well in human society. On the other hand, 
trying to learn something or build a business in Second Life, I 
would argue is in many cases a kind of a lemonade stand 
experience that is superior to a lot of other forms of learning 
that you might have around you. So I think there is a 
sensitivity to how much--what people are specifically doing on 
the virtual world that will drive where the limit should be on 
usage.
    Mr. Stupak. But Linden Lab doesn't have any limitation on 
usage?
    Mr. Rosedale. No, sir, we don't impose a limit on how much 
any individual is able to use the system.
    Mr. Stupak. I think Mr. Stearns has a couple more 
questions, so let us go a second round.
    Mr. Stearns. Thank you, Mr. Chairman.
    Dr. Parris, you had mentioned that the third-generation 
Internet is doing--or the next generation of Internet would be 
three-dimensional. So forgetting Second Life for the moment, do 
you visualize that in the future the Internet will be three-
dimensional across the board, and how will this be implemented?
    Mr. Parris. What I believe will happen here is what we have 
seen in other eras of the Internet. We will see the gradual 
inclusion of everything that went before. So you will have all 
of the capabilities you had with your search and access 
enhanced by these three-dimensional capabilities. So I would 
be, for instance, browsing on a normal two-dimensional Web 
site, and I would decide at that point in time I would like to 
include my friend to do maybe a look at the kitchen or a 
redesign of a room, and I can then put that person in a virtual 
world, and we can do that. So it is an inclusion of what we had 
before with what we have now, because, again, it all depends on 
the application the customer and the business is trying to 
achieve.
    Mr. Stearns. With IBM's position on Second Life, are you 
actually making money then, or is it just a marketing approach?
    Mr. Parris. Well, again, I can't make any judgments on 
making money, but I will say this, because there are a couple 
of ways that you can look at this. One is clearly businesses 
experimenting right now with----
    Mr. Stearns. So it is an experiment of marketing for you, 
PR more than an actual business plan of making money?
    Mr. Parris. Well, there are some cost savings that occur, 
for instance, in training. Rather than people meeting face-to-
face, there are quite a few groups that go into the virtual 
world and do training sessions or do collaboration sessions, so 
there is cost avoidance in terms of sending people traveling, 
lodging, those types of things. So there is money to be made in 
terms of lower costs, cost avoidance. There are situations in 
which we have seen clients come in and do designs in the 
virtual world and design a hotel.
    Mr. Stearns. But you could do video conferencing in IBM and 
get the same thing accomplished with your employees or your 
customers.
    Mr. Parris. Except for the simulation part. Because of the 
low-cost simulation, you can now find ways to really express 
what you are trying to show about a product experience. I can 
actually take you into a cruise ship we are building and show 
you what the staff would be like. The staff would be real 
people. I can actually show you when the waves move in what you 
would see.
    Mr. Stearns. And you can't do that except in Second Life? 
What I am trying to find out, what is there in Second Life that 
makes IBM want to go in other than PR? Is there something 
constructive, tangible?
    Mr. Parris. Yes, there is. I think all of those pieces are 
tangible. The visualization is a familiarity that people have, 
so you will have more people engaged. The simulation is a 
capability that you have of expressing either new designs or 
expressing how my product works best for you in a way that is 
customized that makes people want to buy more. So those are 
viable ways. The training, we have looked at the fact that if 
you do simulation-based training, the retention is much higher, 
so it is much more cost-effective training people that way.
    Mr. Stearns. I see.
    Mr. Parris. So there are a number of ways in which this 
actually does make money, but we are early in the cycle.
    Mr. Stearns. You are just exploring at this point.
    Mr. Parris. Exactly.
    Mr. Stearns. Dr. Johnson, you had indicated that the 
difference between the person and his or her avatar, you treat 
the identity no differently. I think those were your words. But 
I am not sure I agree with you, because Ms. Tenby has given her 
avatar a name which is a glittering name which is pretty 
dramatic----
    Ms. Tenby. And my appearance is a pink cat.
    Mr. Stearns. Yes. I mean, here she is quite conservative in 
her dress, but her avatar is pretty quite showy, I guess, and I 
would think that people sometimes go into Second Life for the 
purpose of changing their identity or experiencing a lifestyle 
that if they can't own a house in Malibu, in Second Life they 
can. If they want to own a motorcycle, they can, or perhaps if 
they want to have a whole different kind of lifestyle, they do. 
So my feeling is that I am not sure that you can say that the 
identity is the same between the avatar and the person. Maybe I 
misunderstood you.
    Mr. Johnson. I think you may have. There is a difference 
between how one chooses to express themselves. You have a great 
many more avenues for self-expression.
    Mr. Stearns. But I think people express themselves in 
Second Life in a way that they wouldn't express themselves in 
real life because they can't.
    Mr. Johnson. Nonetheless, they are still the same person. 
That is my point. And the names are really a reflection of the 
platform. On other platforms you can use your actual name. In 
Second Life, a choice that they made was that you had to pick 
from the last names that they provide you, and that leads to a 
playfulness about it. You know, there certainly are all forms 
of avatars that people can take. You can be a cat, whatever you 
would like to be. You don't have to actually even be an animate 
thing. You can be a cube, if you like. At the end of the day, 
what my experience is in working with the 7,500 people we work 
with, is that we connect in the same ways that we connect in 
real life, despite the fact there may be a playfulness at 
times, what some people's choices are, or they may be 
exploring, you know----
    Mr. Stearns. Mr. Rosedale, do you agree with that, what he 
is saying?
    Mr. Rosedale. I think that people are both--I think people 
are extending their identity in the virtual world. As you said, 
Congressman, the----
    Mr. Stearns. I mean, that is the joy of this thing, that 
you can have another life, and you can do things that you 
cannot do here because, let us say, you are a computer analyst, 
and you work 8, 9, 10 hours a day. You come home, you go into 
your home, and you don't have much of a social life, you can 
get on Second Life and have a whole new social life.
    Mr. Rosedale. You know, I think that the information age 
has just generally allowed us to essentially come closer in our 
interaction and our projection of identity to what we imagine 
than what we are sort of physically able to project, and I 
think that that is seen in Second Life. But as Dr. Johnson 
says, there is a sort of a--I think what Dr. Johnson is trying 
to say is, when you are in Second Life, there is a very strong 
sense that you are in a way becoming more of yourself. There is 
a very, very strong sense of----
    Mr. Stearns. Self-actualizing who you really will be some 
day.
    Mr. Rosedale. True. Self-actualization, I think, is a good 
description. People have an intense attachment to the identity 
that they create there, which is one of the things, as I 
mentioned earlier, that makes the environment potentially quite 
safe as it grows, is because those identities are extremely 
durable and sustained. When you meet people there, when you 
walk up to someone, you are generally interacting with people 
who you know through these lengthy identities. So while there 
is a question of how we tie that back to the real world, a 
benefit that the virtual world has is that it has a real lack 
of anonymity. There is a draw to us all, whether in a business 
or commercial or social context, to create strong identities 
which are then connectable to us and to our histories of 
behavior.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Stupak. Thank you.
    Well, let me thank everyone on this panel, and thank you 
very much. It was a very fascinating hearing, and I am sure we 
will hear more of it as it continues to grow and explode. The 
one thing in a virtual world though, to my friend Mr. Stearns, 
it won't make the Minority the Majority. So we are still safe. 
So thank you.
    [Whereupon, at 11:15 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                   Statement of Hon. John D. Dingell

    Mr. Chairman, online worlds such as Second Life are 
exploding in popularity. While these worlds offer Internet 
users new ways to interact online and encourage creativity and 
entrepreneurship through user-generated content, they also 
raise questions about online behavior and activities. I 
appreciate the Chairman's holding this hearing today to learn 
more about the possibilities and pitfalls of this new virtual 
space.
    Some of the applications virtual worlds can offer are 
intriguing. In Second Life, users can attend virtual college 
courses, and corporations have opened virtual offices. Second 
Life has also afforded nonprofits a new platform in which to 
raise money and awareness. For example, the American Cancer 
Society was able to raise more than $100,000 through a virtual 
walk-a-thon last year. The Federal Government has even invested 
in Second Life through the funding of a virtual nuclear science 
program, and agencies such as the Federal Bureau of 
Investigations and Central Intelligence Agency provide training 
using Second Life.
    I find it interesting that virtual worlds have established 
their own currencies that have exchange rates with the U.S. 
Dollar. Ensuring that such virtual currencies are consistent 
with our financial services laws is worthy of further 
consideration.
    Virtual worlds also face potential problems regarding the 
safety of their users, fraud, and abuse. For that reason, I 
applaud Second Life for turning away users under the age of 18. 
Younger users are instead directed to a more circumscribed teen 
version of the virtual world. I was also glad to see Second 
Life ban all casinos and Internet gambling in its space, as 
well as shutting down banks. As with any innovative technology, 
new problems will arise as more and more people enter the 
virtual space. I will be watching to see how virtual worlds 
proactively address issues that emerge in the future. Thank 
you.
[GRAPHIC] [TIFF OMITTED] 50918.001

[GRAPHIC] [TIFF OMITTED] 50918.002

[GRAPHIC] [TIFF OMITTED] 50918.003

[GRAPHIC] [TIFF OMITTED] 50918.004

[GRAPHIC] [TIFF OMITTED] 50918.005

[GRAPHIC] [TIFF OMITTED] 50918.006

[GRAPHIC] [TIFF OMITTED] 50918.007

[GRAPHIC] [TIFF OMITTED] 50918.008

[GRAPHIC] [TIFF OMITTED] 50918.009

[GRAPHIC] [TIFF OMITTED] 50918.046

[GRAPHIC] [TIFF OMITTED] 50918.047

                Statement of the American Cancer Society

                        Prepared by Randall Moss

    The American Cancer Society is the nationwide community-
based voluntary health organization dedicated to eliminating 
cancer as a major health problem by preventing cancer, saving 
lives, and diminishing suffering from cancer, through research, 
education, advocacy, and service. One of the key activities of 
the American Cancer Society is organizing people to deliver on 
the mission of the Society. As a community-based volunteer 
organization, we have a responsibility to seek out communities 
and engage them in mission related activities.
    The Futuring and Innovation Center (FIC) is charged with 
the exploration and investigation of outlying trends that may 
impact our organization and our constituents. We proactively 
seek out trends by way of reading futures-oriented periodicals, 
attending conferences, and engaging thought leaders directly in 
order to develop scenarios. From these scenarios we make 
strategic suggestions on areas of opportunity to drive mission 
to new and existing communities and better service our 
constituents.
    In 2003, we identified an upcoming trend that suggested a 
substantial move towards online communities. The early 2000s 
saw an increased adoption of broadband as well as new software 
technology and less expensive mass memory storage and processor 
power. Along with the advent of Friendster, MySpace, and 
Facebook, the Futuring and Innovation Center also saw the 
development of 3D immersive virtual world environments. In 
April 2004, at the Association of Professional Futurists annual 
meeting, Philip Rosedale of Linden Lab introduced Mike Mitchell 
and me to Second Life.
    Looking beyond the technology, we clearly saw the 
foundation of this virtual world was a global community of 
people. Beyond the circuits and servers, the core of the 
emerging trend was a rebirth of community in a digital space. 
The Second Life community at the time was barely 50,000 active 
members, and the Futuring and Innovation Center believed the 
combined growth in computational technology and broadband 
adoption would increase the membership of Second Life and other 
virtual communities exponentially.
    What drew the Society to become involved in Second Life was 
the potential for in-depth constituent interaction. The 
platform allows for a rich visual experience, and we predicted 
correctly that it would very shortly support rich audio and 
voice interactions. The technology also supports the 
importation of images and text, as well as a monetary system 
that allows for financial transactions. After considering the 
capabilities of Second Life, we recognized it as a platform 
that would support the Society's mission related activities.
    The Society's initial activity in Second Life was a 
replication of our signature fundraising event, Relay For Life. 
The American Cancer Society Relay For Life began in May 1985, 
when a colorectal surgeon ran around a track in Tacoma, 
Washington for 24 hours, raising $27,000 to support the 
American Cancer Society. Relay For Life has raised more than 
$1.5 billion to support the Society and accelerate the progress 
in the war against cancer by saving lives, helping those 
touched by cancer, and empowering people to fight back against 
this disease.
    The Futuring and Innovation Center worked with the American 
Cancer Society volunteers in Second Life to create a virtual 
space large enough to hold a full fledged 24-hour walk-a-thon. 
The goal of this event was to determine the capacity of a 
virtual world platform to hold a re-creation of a real world 
event. The event attracted hundreds of residents to walk and to 
donate money to support the mission. The Society reached out 
through the community members to advertise the relay, 
attracting well over 500 people to attend and walk in the first 
annual Relay For Life in Second Life. The event was designed 
and built by a core of seven (7) volunteers, who created a 96-
square-acre park. The fundraising results were just over 
$5,000. Of this, approximately $1,000 came from direct credit 
card donations and $4,000 came from Linden Dollar donations. 
After the event, it was evident that fundraising and mission 
delivery were absolutely achievable in a virtual world 
community.
    Following the success of the initial event, we began to 
consider the options of how to further expand our mission 
delivery capabilities. The Society attracted a number of 
volunteers after the 2005 event who donated their skill, 
dedication, and volunteer hours to develop the 2006 Relay For 
Life in Second Life. The 2006 Relay was twice as large, 
covering 192 square acres, and had an official theme: ``Cancer 
Around the World.'' Each section of the track was built and 
decorated to reflect the countries where Second Life residents 
live in the real world. The countries represented included 
India, Ireland, China, South Africa, Australia, and Mexico. The 
2006 Second Life Relay for Life fundraising totaled $41,000, of 
which nearly $4,000 was collected from credit card payments, 
and $37,000 was collected in Linden dollars. This was the first 
year the Society encouraged team fundraising as an 
extraordinary way to mobilize the community and draw attendees. 
The volume of participants was higher than expected, numbering 
over 1,200, and even resulted in a temporary shut down of the 
Second Life server due to so many people trying to participate 
in the Relay.
    The financial and participation successes of the 2006 Relay 
For Life drew additional volunteers who were excited to help 
design, manage and execute the 2007 event. During the 2007 
Relay planning, we transitioned volunteer leadership from our 
original volunteer chair to a new volunteer chair who had been 
involved closely in the planning of the 2006 event. Our new 
chair expanded the scope and size of the Relay by increasing 
the physical space to 512 square acres. The volunteer committee 
also limited the number of teams that could participate to 40, 
and community leaders filled all 40 team slots. The volunteer 
committee named the Relay ``Quest For a Cure,'' and the group 
of 20 worked for 13 days to create adventure themed landscapes 
and experience scenes to line the track. The event drew over 
1,700 walkers and raised $118,500, with $117,985 coming from 
Linden Dollar donations.
    More importantly, the Second Life members issued a call to 
the Society for supportive services and health content from the 
Society. In accordance with the wishes of the community, the 
Society initiated a program to create an office and a resource 
center located on what is today called ``American Cancer 
Society Island.'' The Society's goals are to translate real-
life patient support services into the virtual space as 
identically as possible. By considering Second Life to be both 
a self-contained and an extension of real world community, we 
appreciate the fact that there are cancer survivors, patients, 
and care givers here who did not have access to, or had not 
accessed, our services previously and can benefit from them.
    With the constituent experience in mind, the Society 
developed the American Cancer Society Island in conjunction 
with the development company IVM, who did the work pro bono. 
The centerpiece of the island is a set of interactive 
educational experiences. The first element is a set of virtual 
computer terminals that, when engaged, ask the constituent 
direct questions about the type of cancer information they are 
seeking. The interface leads them through a decision tree. The 
end result is a Web browser opening on the constituent's screen 
with a Cancer.org page containing the information they want. At 
this time, the interface functions only in English, but as we 
are looking to add additional languages to Cancer.org, we will 
update the Second Life interface to follow suit.
    The second piece of our education mission is a theater. The 
space is equipped with a slide projector for group meetings and 
presentations. To maintain professional standards, only Society 
staff members are permitted to present medical information on 
the American Cancer Society Island. We have invited and 
scheduled medical professionals to present on nutrition, 
medical research, and epidemiology studies. Along with Society 
staff, various members of the Second Life community make 
presentations on their personal experience with cancer. A 
number of community-led support groups have developed, and the 
Society encourages them to use our space and resources for 
their meetings.
    The final piece of our educational activities is in 
development. The Society is creating interactive tutorials 
intended to help individuals learn the physical motions to 
conduct cancer self-examinations. First in line are tutorials 
for breast cancer and the Reach to Recovery program. Using the 
interactive nature of Second Life, we are creating a series of 
action scripts that will ``take control'' of a resident's 
avatar and manipulate the avatar in an exact replication of the 
motions necessary to complete a breast self-examination. We 
also are working on a series of motion scripts that lead the 
avatar through a series of movements that coincide with our 
``Reach to Recovery'' program. Reach to Recovery is a 
comprehensive program designed to help newly diagnosed patients 
and recovering breast cancer survivors improve their quality of 
life. The movements are designed specifically to build the 
strength in the chest muscles, particularly important for women 
who have had breast cancer operations. To complement the 
tutorial, we are investigating the possibility of training 
Second Life volunteers to undertake the counseling side of 
Reach to Recovery.
    This October, the Society launched our Making Strides 
Against Breast Cancer program in Second Life. It is an initial 
effort designed to highlight October as Breast Cancer Awareness 
Month, with numerous small awareness rallies and educational 
sessions. We hope to attract volunteers and supporters to 
future events, where we will be holding educational and 
community support activities. The backbone of all American 
Cancer Society programs is that the community must want the 
program and support it.
    Future plans at the office include expanded Society support 
programs, as well as additional informational resources in the 
form of uploaded brochures and the most recent reports. With 
the advent of voice communication to Second Life, the Society 
is seeking ways to link Second Life constituents directly to 
our National Cancer Information Center, a 24/7 toll free call 
center. We also hope to collaborate with other international 
cancer organizations to expand our resources and capacity.
    The American Cancer Society is active in Second Life 
because it recognizes Virtual Communities as communities of 
caring individuals not unlike any city or town anywhere else in 
the world. We appreciate the unique nature of the platform and 
its abilities to bring together a global population. As cancer 
is a world issue, it makes solid business sense for us to 
engage this community by offering as many services as we can 
and replicating our fundraising programs to support our 
efforts. The American Cancer Society is successful in Second 
Life because we know that without our volunteer support, we 
would not be able to execute our mission delivery activities. 
We appreciate the efforts of our volunteers and thank them for 
all of their hard work and dedication. Together we can win the 
battle against cancer.

                                 <all>

</pre></body></html>
